              OFFICE OF
       THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


THE DEVELOPMENTAL DISABILITIES ASSOCIATION
     OF NEW JERSEY, INCORPORATED – AN
   ORGANIZATIONAL REPRESENTATIVE PAYEE
  FOR THE SOCIAL SECURITY ADMINISTRATION

        February 2011   A-02-10-41084




  AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      February 23, 2011                                                          Refer To:

To:        Beatrice M. Disman
           Regional Commissioner
           New York

From:      Inspector General

Subject:   The Developmental Disabilities Association of New Jersey, Incorporated - An
           Organizational Representative Payee for the Social Security Administration
           (A-02-10-41084)


           OBJECTIVE
           Our objectives were to determine whether the Developmental Disabilities Association of
           New Jersey, Incorporated (DDANJ), an organizational representative payee for the
           Social Security Administration (SSA), (1) had effective controls over the receipt and
           disbursement of Old-Age, Survivors and Disability Insurance (OASDI) and
           Supplemental Security Income (SSI) payments; and (2) managed payments in
           accordance with SSA’s policies and procedures.

           BACKGROUND
           Congress granted SSA the authority to appoint representative payees to receive and
           manage the benefit payments of beneficiaries who cannot manage their finances
           because of their youth or mental and/or physical impairments.1 A representative payee
           may be an individual or an organization. SSA selects representative payees for OASDI
           beneficiaries or SSI recipients when representative payments would serve the
           individuals’ interests. Representative payees are responsible for managing benefits in
           the best interest of the beneficiary. 2 Refer to Appendix B for additional representative
           payee responsibilities.

           DDANJ is a nonprofit organization that provides residential and vocational services to
           Social Security beneficiaries with developmental disabilities. The beneficiaries resided
           in 13 group homes in 8 counties in New Jersey. Each group home maintained a
           checking account, a petty cash account, and several company credit cards to make

           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
Page 2 – Beatrice M. Disman


purchases on behalf of beneficiaries. Group home staff was required to retain receipts
and submit them to DDANJ’s main administrative office, which used an internally-
developed ledger to account for each beneficiary’s benefit receipts, expenditures, and
conserved fund balances. Once the administrative office reviewed receipts for
expenditures paid on behalf of the beneficiaries, it replenished the funds to the group
home account from DDANJ’s operating bank account.

DDANJ used its operating bank account to disburse funds for all beneficiary
expenditures. DDANJ also maintained a separate collective bank account to deposit
group home residents’ benefit receipts and other income. Although DDANJ was not
representative payee for 13 of the residents in its group homes, any income received by
DDANJ on behalf of these individuals was deposited into the beneficiary collective
account. DDANJ reimbursed itself for beneficiary expenses by withdrawing funds from
the beneficiaries’ collective account and depositing them into its operating account.

In July 2009, a periodic financial review 3 conducted by an SSA contractor raised a
number of questions about DDANJ’s management of beneficiary funds. The results of
the review were brought to the attention of the Office of the Inspector General, which led
to this audit.

SSA paid approximately $597,000 to DDANJ during our 12-month audit period from
March 2009 to February 2010 on behalf of 56 beneficiaries. 4 We reviewed all
56 beneficiaries’ accounts to determine whether DDANJ properly managed their
benefits. See Appendix C for our complete scope and methodology.

RESULTS OF REVIEW
Our review found that DDANJ (1) did not have effective controls over the receipt and
disbursement of benefits; (2) did not manage payments in accordance with SSA’s
policies and procedures; and (3) received and negotiated payments for beneficiaries for
whom it was not the payee of record. Although we found deficiencies in DDANJ’s
management of beneficiary funds, it appeared that DDANJ met the beneficiaries’ basic
needs.




3
    See Appendix C for a description of the representative payee review performed by SSA.
4
  As of March 1, 2009, DDANJ was the representative payee of record for 55 beneficiaries, and it also
received payments for 1 beneficiary who did not have a representative payee. In addition, there were
12 beneficiaries who lived in DDANJ’s group homes but had a representative payee other than DDANJ.
Page 3 – Beatrice M. Disman


CONTROLS OVER RECEIPT AND DISBURSEMENT OF BENEFITS

DDANJ did not have effective controls over the receipt and disbursement of benefits.
DDANJ did not reconcile bank statements to the beneficiary ledgers to ensure their
accuracy. Additionally, we identified questionable transfers from the beneficiary
collective account to DDANJ’s operating account. Also, the disbursement of beneficiary
funds at DDANJ’s group homes lacked the segregation of duties needed to ensure the
integrity of the funds.

Bank Reconciliation

DDANJ did not reconcile the bank statement balances of the beneficiaries’ collective
account to the beneficiaries’ individual ledger balances. Without such reconciliation,
DDANJ could not ensure the reliability of the ledgers used to record the amount of each
beneficiary’s funds and the accuracy of the beneficiaries’ collective account.

At the beginning of our audit period, the bank balance exceeded the ledger balance by
$19,700. However, at the end of the audit period, the bank balance was $6,732 less
than the ledger balance (see Table 1). From the beginning of our audit period to the
end, the bank statements showed a $5,229 decrease in balance, while the beneficiary
ledger balance increased by $21,203.

                              Table 1: Bank Statement Reconciliation
                                                    Bank            Beneficiary
                                                  Statement           Ledger              Difference 5
      Balance as of March 1, 2009                    $67,222           $47,522             $19,700

          Plus all deposits                        $668,686           $676,734             ($8,048)

          Minus all withdrawals                    $673,915           $655,531             $18,384
                                                               6
      Balance as of February 28, 2010               $61,993           $68,725 7            ($6,732)

      Changes 8                                     ($5,229)          $21,203




5
    Bank statement balance minus the beneficiary ledger balance.
6
    Bank statement balance as of February 26, 2010, the last business day of the month.
7
  The beneficiary ledger balance as of February 28, 2010 equals the balance as of March 1, 2009 plus all
deposits received on behalf of the beneficiaries and all withdrawals made from beneficiary funds. The
resulting balance is $68,725, though the beneficiary ledger maintained by DDANJ showed a different
ending balance of $71,477. We believe this difference was due to a mathematical error.
8
    Changes for both the ledger and bank balances from March 1, 2009 to February 28, 2010.
Page 4 – Beatrice M. Disman


DDANJ acknowledged it had not reconciled the bank statements and ledger balances
and could not provide a complete explanation for the variance. We verified that there
were no outstanding checks at the end of our audit period.

Since DDANJ had not performed reconciliations before our audit period, we could not
conclusively determine what caused the variance or when the difference occurred.
SSA’s regulations require that representative payees maintain accurate and complete
records of how benefits are received and used for each beneficiary. 9 The bank
statement balance of the beneficiaries’ collective account should reconcile with the sum
of each beneficiary’s ledger balance. If DDANJ is unable to determine the cause of the
variance, SSA and DDANJ need to determine the correct balance for each beneficiary
and ensure the ledger balance of each beneficiary corresponds to his share in the
collective bank account. DDANJ should regularly reconcile the beneficiary ledgers to
the bank statement for the collective account from that point forward.

Transfer of Funds Between the Beneficiary Collective and Operating Accounts

While attempting to reconcile the beneficiaries' collective account and DDANJ’s
operating account, we identified questionable transfers between the two accounts. In
all, DDANJ made 12 transfers totaling $13,165. The transfers all occurred on
August 31, 2009.

DDANJ maintained negative ledger balances for some of the beneficiaries it served.
For example, 14 beneficiaries had negative ledger balances totaling $4,167 as of
March 31, 2009. In effect, beneficiaries with conserved funds were lending money to
beneficiaries with negative ledger balances to fund monthly disbursements, which is not
allowable. 10 Additionally, since there was one collective beneficiary bank account,
beneficiaries with a negative ledger balance prevented those with a positive ledger
balance from receiving the full interest from the bank to which they were entitled.

DDANJ stated it was advised by SSA’s contractor who conducted the triennial
representative payee financial review to lend funds from its operating account to
beneficiaries with a negative balance to ensure beneficiaries with positive balances
received the proper bank interest. However, this recommendation did not appear in the
contractor’s audit report, and an SSA specialist who participated in the audit did not
agree that the team recommended this practice.

The 12 transactions on August 31, 2009 resulted in a net transfer of $13,165 from the
beneficiaries’ collective account to DDANJ’s operating account. 11 The decreased
balance of the beneficiaries’ collective account resulted in a decrease in interest earned,
9
 20 C.F.R. §§ 404.2065 and 416.665. See also SSA, Guide for Organizational Representative Payee –
Developing a Representative Payee Accounting System.
10
  20 C.F.R. §§ 404.2040 and 416.640. See also SSA, Guide for Organizational Representative Payee –
Are There Limits to What a Representative Payee Can Do?
11
     See Appendix D for DDANJ’s explanation of the 12 fund transfers.
Page 5 – Beatrice M. Disman


rather than an increase in interest earned, which was the stated intent of the transfers
per DDANJ. Regardless of the intent, these transfers were inappropriate.

Segregation of Duties

DDANJ did not adequately segregate the management of beneficiary funds in its group
homes. Each group home maintained a checking account to make purchases on behalf
of the beneficiaries. At the end of the month, the group homes submitted supporting
documentation to the administrative office for checks written from their respective
accounts. During our audit, we reviewed a sample of 52 checks written from these
accounts. Although DDANJ policy stated that all checks have 2 signatures, 18 of these
checks did not have a second signature. Furthermore, 11 of the 18 checks with
1 signature were paid to the individual who signed the check. An additional 22 checks
had the required second signature, but were paid to 1 of the 2 individuals who signed
the check. We also noted that some checks were signed by personnel who were not on
a DDANJ list of those authorized to sign checks.

While group home employees had company checks and credit cards at their disposal to
pay for beneficiary-related items, DDANJ stated that employees might pay for
beneficiaries’ expenditures from their own funds if these other forms of payment are
unavailable at the time of a purchase. They would later be reimbursed by issuing
checks in their own names. For example, one employee used his own credit card to
buy clothing for a beneficiary and issued a check to reimburse himself.

Employees also issued checks to themselves to withdraw funds from the group home
checking account to distribute cash to beneficiaries for spending money on trips. For
example, one employee wrote a check to withdraw $400 in cash from the group home
checking account and distributed $80 each to five beneficiaries for playing money in
Atlantic City. Lastly, employees might also write checks to themselves and cash the
checks to replenish the petty cash funds the group homes maintained.

We reviewed the 33 checks totaling $7,476 signed by DDANJ group home employees
who were also the payees on the checks. The lack of segregation of duties in the check
signature process created the opportunity for fraud, waste, and abuse of beneficiary
funds. To reduce the risk of fraud, a different person should be assigned to write and
sign checks for approved disbursements.12

SSA POLICIES AND PROCEDURES FOR PAYMENTS MADE ON BEHALF OF
BENEFICIARIES

DDANJ did not manage payments in accordance with SSA’s policies and procedures.
DDANJ charged beneficiaries more than actual costs incurred for trips it arranged.
Additionally, funds allocated for future travel plans affected the SSI eligibility of seven
recipients. Also, beneficiary funds for planned travel were comingled with those of


12
     SSA, Guide for Organizational Representative Payee – Separation of Employee Duties.
Page 6 – Beatrice M. Disman


DDANJ’s operating account. Furthermore, despite an agreement with the local field
office to have expenditures over $100 pre-approved, 12 of 15 expenditures over
$100 we reviewed were not pre-approved.

Benefit Funds Used for Travel

SSA policy requires that representative payees apply benefits received on behalf of a
beneficiary only for the use and benefit of that beneficiary. 13 DDANJ operates a travel
program called Assisted Recreation and Vacation Travel Services (ARVTS), which
provides all-inclusive travel assistance to individuals with developmental disabilities.14

While DDANJ staff reported they considered ARVTS a separate travel program, much
like a private travel agency, they did not provide documentation to demonstrate that
ARVTS was a separate entity. DDANJ did not maintain a separate bank account for
ARVTS; it only maintained a separate ledger that showed the balance of each
beneficiary who participated in the program. Also, the same staff who worked for
DDANJ managed the travel planned as ARVTS trips.

We reviewed all 13 ARVTS trips taken by Social Security beneficiaries 15 in 2009 and
found that DDANJ charged beneficiaries approximately $7,765 more than actual
expenses for ARVTS trips. The trips were all-inclusive; each beneficiary paid a pre-
determined amount based on the destination. In return, DDANJ provided
transportation, hotel accommodations, meals, chaperones, and admission to attractions.

SSA policy states that a representative payee may be reimbursed for reasonable
out-of-pocket expenses incurred on the beneficiary’s behalf. The amount of
reimbursement must correspond to the actual expense incurred. 16 DDANJ was
reimbursed for more than the actual expense incurred on all the trips. For example, the
amount deducted from beneficiary accounts for a trip to Las Vegas, Nevada, exceeded
the cost of the trip by $1,888. The amount deducted from beneficiary accounts for a trip
to Orlando, Florida, exceeded the cost of the trip by $3,433.

The costs of both trips included lodging, food, transportation, and entertainment for all
beneficiaries and chaperones. According to DDANJ’s handwritten records of trip
expenses, it also incurred $2,500 in additional expenses for chaperone salaries. The
chaperones were DDANJ employees. According to POMS, representative payees
should never use beneficiary funds to pay for a staff member’s salary or compensate
the payee for these costs. Also, the expenses incurred by staff on the trips were paid



13
     SSA, Program Operations Manual System (POMS), GN 00602.001.
14
     This program is open to residents and non-residents of DDANJ run group homes.
15
     SSA beneficiaries under the care of DDANJ.
16
     SSA, Guide for Organizational Representative Payee – Out-of-Pocket Expenses.
Page 7 – Beatrice M. Disman


from beneficiaries’ funds. This is permissible only if the representative payee obtained
SSA approval before the trips. 17 DDANJ did not receive prior approval from SSA.

Commingling Beneficiaries’ Funds

DDANJ commingled beneficiaries’ funds with its operating funds. It transferred funds
from the beneficiaries’ collective account to its own operating account for prepaid/future
trips under the ARVTS program. Management indicated these funds remained the
property of the beneficiaries until they went on the intended trips. However, according
to the travel program ledger, many beneficiaries paid for their trips months ahead of
time. In one case, a beneficiary prepaid 7 months before DDANJ paid any vendors for
the trip. SSA policy indicates a representative payee has a responsibility to keep any
benefits received on behalf of beneficiaries separate from his or her own funds. 18

SSI Eligibility

Funds transferred from the beneficiaries’ collective account to DDANJ’s operating
account for ARVTS-planned trips were deducted from the beneficiaries’ individual
ledger balances. However, funds allocated for ARVTS trips remained the property of
the beneficiaries. Therefore, we added the balances on the ARVTS ledger to the
beneficiaries’ individual ledgers to determine whether the conserved fund balances for
SSI recipients exceeded the $2,000 limit. 19 We found that seven SSI recipients had
balances over the $2,000 limit in 52 separate months during our audit period.

As a representative payee, DDANJ is responsible for using the benefits in the
beneficiaries’ best interests and reporting when the beneficiaries’ resources exceed the
$2,000 limit. Because they exceeded the $2,000 limit, the beneficiaries were ineligible
for SSI payments and, therefore, were overpaid for the 52 months when the limit was
exceeded. Based on the beneficiaries’ ledger records, seven beneficiaries were
overpaid in 52 separate months, for a total of $31,657.

Pre-Approval of Expenditures

DDANJ did not follow agreed-upon procedures with a local Social Security office to
obtain approval before withdrawing expenditures over $100 from beneficiaries’ funds.
SSA has the right and responsibility to identify any situation or practice that may work to
the disadvantage of a beneficiary; and take corrective action in the interests of the
beneficiary and improve payee performance. 20 In response to DDANJ’s 2006 inquiry
regarding the use of beneficiary funds, the Woodbridge Social Security Office advised
DDANJ to follow the pre-approval process.
17
     SSA, POMS, GN 00602.010B3g.
18
     SSA, POMS, GN 00603.010.
19
     20 C.F.R. § 416.1205.
20
     SSA, POMS, GN 00602.010C.
Page 8 – Beatrice M. Disman


We reviewed 15 transactions over $100 and identified 8 instances where DDANJ did
not request pre-approval; and 4 instances where DDANJ requested but did not receive
pre-approval. In these latter cases, DDANJ made the purchases 2 months after its
initial requests. The purchases were neither approved nor disapproved before or after
the transactions.

•     DDANJ submitted requests for pre-approval of expenditures for three beneficiaries
      on June 1, 2009. The anticipated cost was $2,600 each for an ARVTS trip to
      Las Vegas. The local office did not render a decision on the requests, but the
      beneficiaries went on the intended trip in August 2009.

•     DDANJ requested a pre-approval of expenditure for one beneficiary on
      June 1, 2009. The anticipated cost was $1,300 to purchase furniture. The local
      office did not render a decision on the request, but DDANJ purchased the furniture
      for $857 on August 2009.

•     DDANJ did not request pre-approval of an expenditure for one beneficiary who went
      on an ARVTS trip to Nashville, Tennessee, in June 2009. The final cost of the trip
      was $1,475.

•     DDANJ did not request pre-approval of an expenditure of $690 for one beneficiary to
      attend a football game in December 2009.

UNREPRESENTED BENEFICIARIES

DDANJ received Social Security payments totaling $10,151 for two beneficiaries for
whom it was not the representative payee of record. DDANJ endorsed and deposited
the checks into the Social Security beneficiaries’ collective account. Both beneficiaries
resided in DDANJ’s group homes. These arrangements constituted an assignment-like
situation, which is prohibited by SSA policy. 21 One beneficiary, who was entitled to
OASDI and SSI, had no representative payee. The other beneficiary had no
representative payee for his OASDI benefit, but DDANJ was the representative payee
for his SSI payment. We informed DDANJ and SSA of our findings; and requested that
SSA determine whether the beneficiaries were capable of managing their own funds,
and, if not, assign an appropriate payee.

We also found that DDANJ served as the payee for the OASDI benefits of two other
beneficiaries. However, a different organization served as the representative payee for
their SSI payments. A beneficiary should not have multiple payees receiving his OASDI
and SSI payments. SSA policy requires that if two payee applicants seem equally
qualified, such factors as history of providing good service, eagerness to serve, and
beneficiary’s preference should be considered. 22


21
     SSA, POMS, GN 02410.001D2.
22
     SSA, POMS, GN 00502.130B.2.
Page 9 – Beatrice M. Disman


In addition, there were 12 beneficiaries who lived in DDANJ’s group homes, but who
had a representative payee other than DDANJ. 23 In some cases, the representative
payees of record lived in States hundreds of miles from New Jersey. According to SSA
policy, one of the factors to consider when evaluating a payee is custody or how close
the applicant lives to the beneficiary. Having payees who live far from beneficiaries may
not serve the best interest and the beneficiaries’ well-being.

                               Table 2: DDANJ Beneficiary Structure
                                   (March 2009 – February 2010)
                                                                                  Number of
                                   Type of Beneficiary                           Beneficiaries
 OASDI only, DDANJ is the representative payee                                       24
 SSI only, DDANJ is the representative payee                                          11
 Concurrent, DDANJ is the representative payee for both OASDI and SSI                 17
 Concurrent, DDANJ is the representative payee for OASDI; The State of New
 Jersey Division of Developmental Disabilities is the representative payee for        2
 SSI
 Concurrent, DDANJ is the representative payee for SSI; There is no
                                                                                      1
 representative payee for OASDI, but both checks are sent to DDANJ
 Concurrent, there is no representative payee for OASDI or SSI, but both
                                                                                      1
 checks are sent to DDANJ
 SSA beneficiaries reside in DDANJ but payments are sent to representative
                                                                                      12
 payees living elsewhere
     Totals                                                                           68

CONCLUSION AND RECOMMENDATIONS
DDANJ had internal control and accounting deficiencies that prevented it from fully
meeting its responsibilities as a representative payee. The lack of effective control over
the disbursement of beneficiary funds in the group homes created opportunity for fraud,
waste, and abuse of beneficiary funds. We believe DDANJ needs to improve several
areas of its representative payee program. Accordingly, we recommend that SSA:

1. Work with DDANJ to reconcile the beneficiary ledger balances to their collective
   account bank statement. If DDANJ is unable to resolve the variance, determine the
   correct balance for each beneficiary and ensure the ledger balance of each
   beneficiary corresponds to his/her share in the collective bank account.

2. Instruct DDANJ to return the $13,165 inappropriately withdrawn from the beneficiary
   collective account to correct negative beneficiary balances; and stop the practice of
   fund transfers between the beneficiaries’ collective account and DDANJ’s operating
   account.



23
     Two of these beneficiaries left DDANJ during the audit period.
Page 10 – Beatrice M. Disman


3. Work with DDANJ to prohibit group home staff from issuing checks in their own
   names as a means of reimbursement for beneficiary expenditures. DDANJ staff
   should use the checks and credit cards provided by DDANJ to pay the providers of
   goods and services purchased for the benefit of the beneficiaries.

4. Determine whether improper use of benefits or misuse of benefits occurred as a
   result of DDANJ’s use of benefits for its ARVTS travel program. If misuse occurred,
   SSA should take appropriate action.

5. Direct DDANJ to use the beneficiaries’ collective account to administer all
   beneficiaries’ receipt and disbursement transactions.

6. Review the records of the seven beneficiaries we identified who appeared to have
   exceeded the $2,000 resource limit, and take appropriate action.

7. Instruct DDANJ to monitor the conserved fund balances of SSI recipients, and notify
   SSA if a balance exceeds $2,000.

8. Instruct DDANJ to follow agreed-upon procedures with the Woodbridge Social
   Security Office before withdrawing expenditures over $100 from beneficiaries’ funds.

9. Ensure the Woodbridge Social Security Office responds to pre-approval requests
   from DDANJ timely.

10. Determine whether to assign DDANJ as the new representative payee for
    beneficiaries who reside in DDANJ group homes, whose current representative
    payee is not DDANJ, or who do not have a representative payee on record.

11. Conduct follow-up reviews of the representative payee to ensure it is complying with
    SSA’s requirements.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS AND OIG
RESPONSE
SSA agreed with our recommendations (see Appendix E). DDANJ disagreed with some
of our recommendations (see Appendix F). We continue to believe DDANJ should work
with SSA to ensure proper management of beneficiaries’ funds.




                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities and Social Security
             Administration Oversight
APPENDIX C – Scope and Methodology
APPENDIX D – Developmental Disabilities Association of New Jersey’s 12 Fund
             Transfers on August 31, 2009
APPENDIX E – Agency Comments
APPENDIX F – Representative Payee Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
ARVTS    Assisted Recreation and Vacation Travel Services
BCA      Beneficiary Collective Account
C.F.R.   Code of Federal Regulations
DDANJ    Developmental Disabilities Association of New Jersey,
         Incorporated
OA       Operating Account
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities and
Social Security Administration Oversight
Representative Payee Responsibilities

Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain accounting records of how the benefits are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested.

•     Return any payments to SSA for which the beneficiary is not entitled.

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

•     Be aware of any other income Supplemental Security Income recipients may have.

•     Monitor beneficiaries’ conserved fund balances to ensure they do not exceed
      resource limits.

SSA Oversight

To oversee its representative payees, SSA implemented the Expanded Monitoring
Program for fee-for-service and volume payees and the Onsite Review Program for
State institutions. Under the Expanded Monitoring Program, SSA conducts a site
review of all fee-for-service and volume payees at least once every 3 years.

1
    20 C.F.R. §§ 404.2035 and 416.635.


                                             B-1
Fee-for-service and volume payees are also subject to random reviews, quick response
checks, and educational visits. The purpose of the Expanded Monitoring Program is to
improve SSA’s ability to (1) determine whether representative payees are performing
satisfactorily, (2) deter potential misuse, (3) keep the lines of communication open
between representative payees and local SSA offices, (4) reinforce efforts to educate
representative payees about their duties and responsibilities, and (5) be responsive and
proactive in determining what representative payees need from SSA.




                                          B-2
                                                                     Appendix C

Scope and Methodology
Our audit covered the period March 1, 2009 through February 28, 2010. To accomplish
our objectives, we:

•   Reviewed the Social Security Act, applicable Federal regulations, and the Social
    Security Administration’s (SSA) policies and procedures pertaining to representative
    payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Contacted SSA New York Regional Office and New Jersey field office staffs to
    obtain background information and prior audits regarding the individual
    representative payee.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were served by the Developmental Disabilities Association of New Jersey,
    Incorporated (DDANJ), during the audit period.

•   Interviewed DDANJ management and obtained beneficiary information and available
    financial records, including a list of individuals who had DDANJ as a representative
    payee and had received SSA funds at some point during the audit period.

•   Compared the RPS list, Master Beneficiary Record, Supplemental Security Record,
    and Treasury Check Information System and reconciled them to DDANJ’s list to
    identify the population of SSA beneficiaries served by DDANJ during the audit
    period.

•   Performed a 100-percent review of a population of 56 beneficiaries whose benefit
    payments were sent to DDANJ during the audit period. We performed the following
    tests for the 56 beneficiaries.

        Compared and reconciled benefit amounts received according to DDANJ’s
         records to benefit amounts paid according to SSA’s records.
        Reconciled the bank statement balances of the beneficiaries’ collective
          account to their individual ledger balances to determine the completeness
          and reliability of beneficiaries’ ledgers.

•   Traced 200 recorded expenses to source documents and examined the underlying
    documentation for reasonableness and authenticity.



                                          C-1
•   Reviewed 52 checks issued from the 13 group home checking accounts to
    determine whether DDANJ had adequate segregation of duties.

•   Reviewed the most current Representative Payee Accounting Reports for
    20 beneficiaries to determine whether the representative payee properly reported to
    SSA how benefits were used.

•   Reviewed trips conducted by DDANJ’s Assisted Recreation and Vacation Travel
    Services (ARVTS) program to determine whether DDANJ appropriately spent
    beneficiary funds on planned trips. ARVTS conducted 14 trips during our audit
    period; we reviewed the 13 trips in which at least 1 SSA beneficiary under DDANJ’s
    care participated.

•   Added beneficiary fund balances on the ARVTS ledger to the beneficiaries’
    individual ledgers to determine whether the conserved fund balance for
    Supplemental Security Income recipients exceeded the $2,000 limit.

•   Reviewed 15 expenditure transactions over $100 to determine whether DDANJ
    followed agreed-upon procedures to obtain SSA approval before withdrawing
    expenditures over $100 from beneficiaries’ funds.

•   Observed the living conditions and interviewed 13 beneficiaries to determine
    whether their basic needs were being met.

We tested the data obtained for our audit and determined the data obtained from SSA’s
systems to be sufficiently reliable to meet our objective. As noted in the report, we
were unable to reconcile the beneficiary ledgers to DDANJ’s bank statements. We
performed our fieldwork at DDANJ’s administrative offices in Sewaren, New Jersey,
between March and September 2010.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          C-2
                                                                     Appendix D

Developmental Disabilities Association of New
Jersey’s 12 Fund Transfers on August 31, 2009
The Developmental Disabilities Association of New Jersey, Incorporated (DDANJ),
identified all beneficiaries with a negative ledger balance and compared the sum of the
negative balances to the previous month. If the total negative balance was higher from
1 month ($4,501 in June 2009) compared to the subsequent month ($5,793 in July
2009), DDANJ would lend the change in negative balance ($1,292) to the beneficiaries’
collective account. Conversely, if the negative balance was lower from 1 month ($5,793
in July 2009) to the following month ($4,084 in August 2009), the beneficiaries’
collective account would return the difference ($1,709) to DDANJ’s operating account.
However, DDANJ never made a transfer from the operating account to the beneficiary
collective account to make a loan of the initial $17,250 negative balance when they
began this practice. Therefore, the 12 transfers on August 31, 2009 resulted in a net
withdrawal of $13,165 from the beneficiaries’ collective account to DDANJ’s operating
account (see Table below). DDANJ stated the transfers were for adjustment of the
previous 12 months, starting August 2009.

     Table: DDANJ’s explanation of the 12 fund transfers on August 31, 2009
                Total         Change in Total
                                 Negative
  Month        Negative                                       Transaction
                               Balance from
               Balance          Prior Month
 Aug. 2008      $17,250             N/A
                                                $3,813 from Beneficiary Collective Account
 Sep. 2008      $13,437           -$3,813
                                                    (BCA) to Operating Account (OA)
 Oct. 2008      $14,081           +$644                   $644 from OA to BCA
 Nov. 2008      $15,578           +$1,496                $1,496 from OA to BCA
 Dec. 2008      $16,219           +$641                   $641 from OA to BCA
 Jan. 2009       $8,649           -$7,570                $7,570 from BCA to OA
 Feb. 2009       $7,277           -$1,371                $1,371 from BCA to OA
 Mar. 2009       $4,166           -$3,110                $3,110 from BCA to OA
 Apr. 2009       $4,952           +$785                   $785 from OA to BCA
 May 2009        $3,738           -$1,213                $1,213 from BCA to OA
 Jun. 2009       $4,501           +$762                   $762 from OA to BCA
 Jul. 2009       $5,793           +$1,292                $1,292 from OA to BCA
 Aug. 2009       $4,084           -$1,708                $1,708 from BCA to OA
          Net Total              -$13,165              $13,165 from BCA to OA
                                                                    Appendix E

Agency Comments

January 11, 2011

Subject: Response Audit # 22010059 Draft Report, The Developmental Disabilities
Association of New Jersey, Incorporated - An Organizational Representative Payee for
the Social Security Administration


Thank you for the opportunity to review the draft report of the OIG Study of The
Developmental Disabilities Association of New Jersey (DDANJ). We agree with the
recommendations and will assist DDANJ in correcting the deficiencies.

Questions concerning this response may be directed to Angela Caruso of the Center for
Programs Support at 212-264-3974.

               /s/
           Julio N. Infiesta
      NY Assistant Regional Commissioner, MOS
                                Appendix F

Representative Payee Comments
F-1
F-2
F-3
F-4
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Audit Division

   Christine Hauss, Audit Manager

Acknowledgments

In addition to those named above:

   Vincent Huang, Program Analyst

   Brennan Kraje, Statistician

   William Kearns, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-10-41084.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Developmental Disabilities Association of New Jersey
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
